Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  MEDICARE PART B SERVICES
 DURING NON-PART A NURSING
   HOME STAYS: ENTERAL
     NUTRIENT PRICING




                    Daniel R. Levinson
                     Inspector General

                      January 2010
                     OEI-06-07-00590
           E X E C U T I V E                                               S U M M A R Y


                                      OBJECTIVE
                                      To compare Medicare’s Part B fee schedule for enteral nutrients
                                      provided during non-Part A stays to prices available to nursing home
                                      suppliers and other purchasers.


                                      BACKGROUND
                                      Medicare Part A covers nursing home care for up to 100 days in a
                                      skilled nursing facility during which Part A will pay for enteral
                                      nutrition therapy (ENT) as part of the nursing home’s daily rate. After
                                      the 100 days or in cases when beneficiaries do not qualify for Part A
                                      stays, Medicare Part B may provide coverage for enteral nutrients,
                                      supplies, and equipment during these non-Part A stays. Enteral
                                      nutrients are delivered directly to an individual’s digestive tract
                                      through a feeding tube inserted through the nose or placed in the small
                                      intestine or stomach. Nutrients are delivered through the tube using a
                                      syringe, gravity, or a pump. Medicare contractors use a fee schedule to
                                      reimburse for enteral nutrient claims. During 2006, Medicare Part B
                                      allowed $284 million for ENT provided to nursing home residents
                                      during non-Part A stays ($142 million for enteral nutrients and
                                      $142 million for enteral supplies and equipment).

                                      Two codes of the Healthcare Common Procedure Coding System, B4150
                                      and B4154, accounted for nearly all ($117.8 million) of the $142 million
                                      allowed for enteral nutrients provided during non-Part A stays in 2006.
                                      As such, we focused our evaluation on these two codes. We used
                                      resident assessment data from the Centers for Medicare & Medicaid
                                      Services (CMS) to identify all nursing home stays nationwide during
                                      2006. We then analyzed related Medicare claims data for any allowed
                                      ENT payments during these stays as well as information provided by a
                                      sample of nursing homes and suppliers relating to their costs.
                                      Additionally, we supplemented these results with industry pricing data
                                      gathered and maintained by a marketing research firm that reports
                                      capturing 84 percent of national market activity for enteral nutrients,
                                      including 94 percent of the volume sold to nursing homes in 2006.


                                      FINDING
                                      Medicare’s fee schedule for enteral nutrients provided under Part B
                                      during non-Part A stays was more than double the prices available
                                      to suppliers of nursing homes and other purchasers in 2006. We

OEI-06-07-00590   M E D I C A R E PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : E N T E R A L N U T R I E N T P R I C I N G   i
    E X E C U T I V E                                        S U        M M A R Y


                                      estimate that the Medicare fee schedule amount of $0.67 exceeded the
                                      average unit price available to suppliers responding to our survey by
                                      $0.35 for B4150 nutrients. The Medicare fee schedule amount of
                                      $1.22 exceeded the average unit price by $0.66 for B4154 nutrients.
                                      Using the calculated average unit prices available to the suppliers, we
                                      estimate that Medicare’s allowance for these two most frequently billed
                                      enteral nutrient codes exceeded supplier prices by approximately
                                      $61 million for non-Part A nursing home stays in 2006. Specifically, fee
                                      schedule amounts exceeded the median unit prices available to long
                                      term care entities by 52 percent for B4150 nutrients and 54 percent for
                                      B4154 nutrients. In addition to obtaining pricing data directly from
                                      nursing homes and suppliers, the Office of Inspector General (OIG)
                                      purchased industry pricing data. These data confirmed that Medicare’s
                                      fee schedule amounts exceeded unit prices available to nursing homes
                                      and other purchasers.


                                      RECOMMENDATION
                                      This evaluation is consistent with prior OIG reports that have found
                                      that Medicare’s fee schedule amounts exceed available market prices for
                                      ENT. To ensure appropriate reimbursement for ENT, CMS should:
                                      Adjust the Medicare fee schedule amounts for enteral nutrients to more
                                      accurately reflect supplier prices for nutrients provided to nursing home
                                      residents. CMS can use inherent reasonableness reviews or may be able to
                                      act on available pricing information from other sources.
                                      Payments for ENT could be further impacted if Congress changed the
                                      prosthetic device benefit to restrict Part B coverage to a beneficiary’s home
                                      and thereby recognized enteral nutrients as food covered under nursing
                                      home room and board payment. Such a policy change would end Part B
                                      payments for ENT costs in nursing homes and would affect nearly half of
                                      all current Part B ENT payments annually. The rationale behind a
                                      change to the benefit is that enteral nutrient feeding costs may be
                                      comparable to conventional meal costs incurred for other nursing home
                                      residents. These conventional meal costs are reimbursed under the
                                      nursing home’s room and board payment. Further, a change to the
                                      prosthetic device benefit is consistent with a nursing home’s responsibility
                                      to feed its residents and DME payment policy that places the
                                      responsibility on nursing homes, as institutions, to provide for the basic
                                      equipment needs of residents. Such a payment policy change would
                                      encourage nursing homes to act as prudent purchases and to exert their


OEI-06-07-00590   M E D I C A R E PA R T B S E R V I C E S   DURING   N O N - PA R T A N U R S I N G H O M E S TAY S : E N T E R A L N U T R I E N T   PRICING   ii
    E X E C U T I V E                                        S U        M M A R Y


                                      institutional buying power in obtaining nutrients, supplies, and equipment
                                      for ENT. Limiting the prosthetic device benefit to the home setting would
                                      require legislative action and could result in as much as $284 million in
                                      program savings. However, additional assessment is needed to establish
                                      the comparability of conventional meal costs to ENT and the impact of
                                      such a policy change on nursing homes.


                                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                                      RESPONSE
                                      CMS agreed with our recommendation and described specific actions it
                                      is taking to more accurately reflect supplier prices for nutrients
                                      provided to nursing home residents. We did not make any changes to
                                      the report based on CMS comments.




OEI-06-07-00590   M E D I C A R E PA R T B S E R V I C E S   DURING   N O N - PA R T A N U R S I N G H O M E S TAY S : E N T E R A L N U T R I E N T   PRICING   iii
   T A B L E         O F           C O N T E N T S




           EXECUTIVE SUMMARY .....................................i



           INTRODUCTION ........................................... 1



           F I N D I N G . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
                      Medicare’s fee schedule for enteral nutrients provided under
                      Part B during non-Part A stays was more than double the prices
                      available to suppliers of nursing homes and other purchasers
                      in 2006 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14



           R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
                      Agency Comments and Office of Inspector General Response . . . 18


           A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
                      A: Healthcare Common Procedure Coding System Enteral
                         Nutrient Codes and Related Fee Schedule Amounts
                         During Non-Part A Nursing Home Stays in 2006 . . . . . . . . . . 19

                      B: Healthcare Common Procedure Coding System Enteral
                         Supply and Equipment Codes and Related Fee Schedule
                         Amounts During Non-Part A Nursing Home Stays in 2006 . . 20

                      C: Confidence Intervals for Selected Statistics . . . . . . . . . . . . . . . 21

                      D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22


           A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
    I N T R O D                   U C T                I O N
           I N T R O D U C T I O N


                                      OBJECTIVE
                                      To compare Medicare’s Part B fee schedule for enteral nutrients
                                      provided during non-Part A stays to prices available to nursing home
                                      suppliers and other purchasers.


                                      BACKGROUND
                                      Enteral Nutrition Therapy
                                      In 2006, Medicare Part B allowed $284 million for enteral nutrition
                                      therapy (ENT) services, including enteral nutrients, supplies, and
                                      equipment, during non-Part A nursing home stays. This represents
                                      nearly 47 percent of the $608 million Part B paid for ENT used in any
                                      environment (e.g., nursing homes, beneficiaries’ homes).

                                      The ENT services involve the delivery of liquid nutrients directly to an
                                      individual’s digestive tract through a feeding tube inserted through the
                                      nose or placed in the small intestine or stomach. Nutrients are
                                      delivered through the tube using a syringe, gravity, or a pump. Enteral
                                      nutrients, supplies, and equipment are assigned procedure codes from
                                      the Healthcare Common Procedure Coding System (HCPCS).
                                      Enteral nutrients. A wide range of enteral nutrients exists to meet health
                                      care needs, including special formulas for patients with pulmonary or
                                      metabolic diseases. In 2006, Medicare Part B allowed $142 million for
                                      enteral nutrients provided during non-Part A nursing home stays. 1 Two
                                      HCPCS codes, B4150 and B4154, accounted for nearly all of these
                                      allowed charges ($117.8 million). HCPCS code B4150 represents the
                                      most frequently used nutrient; HCPCS code B4154 covers a more
                                      expensive class of nutrients for patients with special metabolic needs
                                      (e.g., diabetes).

                                      Enteral nutrients are billed and reimbursed by “units,” defined by
                                      Medicare as 100 calories. 2 For example, if a patient is prescribed
                                      2,000 calories of enteral nutrients per day, Medicare reimbursement is
                                      based on 20 units of nutrients per day (2,000 ÷ 100). (See Appendix A

                                      1 For purposes of this evaluation, the term “nursing homes” is generic for any nursing home
                                      regardless of primary payer (e.g., Medicare, Medicaid, or private resources).
                                      2 Centers for Medicare & Medicaid Services (CMS),                                  Medicare Claims Processing Manual,
                                      ch. 20, § 100.2.2.2. Available online at
                                      http://www.cms.hhs.gov/manuals/downloads/clm104c20.pdf. Accessed in January 2009.




OEI-06-07-00590   M E D I C A R E PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : E N T E R A L N U T R I E N T P R I C I N G   1
    I N T R O D                   U C T                I O N


                                      for a list of the HCPCS enteral nutrient codes and their related
                                      Medicare reimbursement rates in 2006 per unit.) Nutrient packaging
                                      generally ranges from closed system containers (i.e., bags or bottles),
                                      ready to hang from an intravenous pole for immediate administration,
                                      to containers (usually cans) that require the nutrient to be transferred
                                      into containers that are ready for administration.
                                      Enteral supplies and equipment. Enteral supplies and equipment are used
                                      to administer the required nutrients. Patients can receive enteral
                                      nutrients through three delivery methods: a syringe (the least
                                      expensive method), a feeding bag that uses gravity to deliver the
                                      formula, or a pump (the most expensive method). (See Appendix B for a
                                      list of HCPCS codes covering enteral supplies and equipment and their
                                      related Medicare fee schedule amounts.) In 2006, Medicare Part B
                                      allowed $142 million for enteral supplies and equipment during nursing
                                      home stays not paid for by Part A.

                                      Medicare and Medicaid Programs
                                      Nursing homes offer daily living assistance to elderly and disabled
                                      individuals who are either physically or mentally unable to live
                                      independently. Nursing home patients receive a wide array of services
                                      ranging from medical treatment to meals and from skilled to custodial
                                      care. Of the available public programs that pay for nursing home care,
                                      Medicare and Medicaid represent the largest.
                                      Medicare. Medicare covers most people 65 years or older, people under
                                      age 65 with certain disabilities, and people of any age diagnosed with
                                      end stage renal disease. It provides a wide range of benefits for
                                      eligible beneficiaries from institutional care (e.g., nursing home stays)
                                      to medical products and supplies (e.g., wheelchairs).

                                      Medicare is administered by CMS, which contracts with entities
                                      called Medicare Administrative Contractors (MAC) to process and pay
                                      claims for covered services. Medicare-covered services most
                                      frequently fall under Parts A and B, constituting 46 percent and
                                      41 percent, respectively, of Medicare’s 2006 expenditures. 3 Medicare
                                      paid $408.3 billion in 2006, of which nursing home services accounted
                                      for $20.5 billion (5 percent). 4



                                      3 CMS, op.cit.
                                      4 CMS, Health           Care Financing Review, 2007 Statistical Supplement.



OEI-06-07-00590   M E D I C A R E PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : E N T E R A L N U T R I E N T P R I C I N G   2
    I N T R O D                   U C T                I O N


                                      The ENT provided to nursing home residents in a skilled nursing
                                      facility (SNF) may or may not be paid by Medicare Part A depending
                                      on how long the beneficiary remains in the facility and whether the
                                      beneficiary meets other medical qualifications.

                                            Part A (hospital insurance) helps cover skilled or rehabilitative care
                                             during beneficiary stays in SNFs; these stays are called Part A
                                             stays. Medicare Part A was the primary payer for 13 percent of the
                                             nursing home residents in 2006. 5, 6 Medicare Part A pays for the
                                             beneficiary’s services in a SNF during the first 100 days of a Part A
                                             stay. During a Part A stay in a SNF, Medicare Part A pays for the
                                             beneficiary’s services in the facility using a consolidated daily rate.
                                             This daily rate covers many routine services provided by SNFs,
                                             including room and board, skilled care, and rehabilitative care.

                                             When a beneficiary exhausts the 100 days of care allowed under the
                                             Part A benefit (or did not otherwise qualify for a SNF stay) and
                                             continues to reside in the SNF, the subsequent days then constitute
                                             a non-Part A stay. During a non-Part A stay, Medicare no longer
                                             pays for the stay; however, Part B may pay for therapy and supplies
                                             previously included in the daily rate paid to the SNF.

                                            Part B (medical insurance) helps cover a wide range of medical
                                             services and supplies. All individuals eligible for Part A may enroll
                                             voluntarily in Part B by payment of a monthly premium. In 2006,
                                             93 percent of all individuals with Part A elected to also enroll in
                                             Part B.

                                             Although Medicare Part A does not pay for non-Part A nursing home
                                             stays, Medicare Part B covers enteral nutrients, as well as the
                                             equipment and supplies necessary for administration, under
                                             Medicare’s prosthetic device benefit. 7 Non-Part A stays can occur in
                                             Medicare-certified SNFs, Medicaid-certified nursing facilities (NF),


                                      5 Medicare Part A pays for up to 100 days in a SNF benefit period, also known as spell of
                                      illness, if a beneficiary meets certain conditions, such as a prior hospitalization. The SNF
                                      benefit period begins the day a beneficiary enters the SNF and ends when the beneficiary
                                      has not received any subsequent hospital or SNF care for 60 consecutive days.
                                      6 C. Harrington, H. Carrillo, and B. W. Blank, Nursing Facilities, Staffing, Residents, and
                                      Facility Deficiencies, 2000 Through 2006, p. 18, Department of Social and Behavioral
                                      Sciences, University of California, San Francisco. Available online at
                                      http://www.nccnhr.org/uploads/PartI-PagesfromHarringtonOSCARcomplete2006.pdf.
                                      Accessed in March 2008.
                                      7 Social Security Act (the Act), § 1861(s)(8).




OEI-06-07-00590   M E D I C A R E PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : E N T E R A L N U T R I E N T P R I C I N G   3
    I N T R O D                   U C T                I O N


                                             and dually certified SNF/NFs. In 2006, Medicare allowed nearly
                                             $284 million for more than 1.2 million claims for ENT during
                                             non-Part A nursing home stays.

                                             The Medicare-allowed ENT claims were associated with 19 HCPCS
                                             codes that were spread across 61,876 beneficiaries, 11,097 nursing
                                             homes, and 4,323 suppliers. Three of the nineteen allowed HCPCS
                                             codes (B4035, B4154, and B4150) accounted for 78 percent
                                             ($222 million) of the allowed payments, and 10 codes each accounted
                                             for less than 1 percent of the allowed payments. The HCPCS code
                                             with the highest allowed payments, the pump supply kit (B4035),
                                             represented nearly 37 percent ($105 million) of the total amount.
                                             The two most frequently billed enteral nutrient codes (B4150 and
                                             B4154) accounted for 41.5 percent ($118 million) of the $284 million
                                             allowed by Medicare Part B.

                                             The average allowed amount for ENT nutrients, supplies, and
                                             equipment during non-Part A nursing home stays in 2006 was
                                             $4,597 per beneficiary, $25,634 per nursing home, and $65,802 per
                                             supplier. The average daily ENT allowance per nursing home
                                             resident in a non-Part A stay in 2006 was $19.81.
                                      Medicare Part B fee schedule for enteral nutrition therapy. Section 1842(s) of
                                      the Act authorized a fee schedule for enteral nutrients, equipment, and
                                      supplies associated with ENT. Medicare-enrolled suppliers provide
                                      ENT services to Medicare beneficiaries and then submit claims to one of
                                      CMS’s four regional payment contractors, called Durable Medical
                                      Equipment (DME) MACs. Each DME MAC is also associated with a
                                      program safeguard contractor that conducts benefit integrity activities,
                                      including medical reviews. Medicare contractors use the fee schedule to
                                      reimburse claims for ENT products. CMS does not take nutrient
                                      packaging into account when setting fee schedule amounts. The fee
                                      schedule is updated annually and percentage increases in the urban
                                      Consumer Price Index determine changes in the reimbursement
                                      amounts.

                                      Fee schedules can also change as a result of CMS revisions and/or
                                      through application of inherent reasonableness. CMS has authority to
                                      establish a realistic and equitable (inherently reasonable) payment
                                      amount for most Medicare Part B services, other than physicians’
                                      services, when the existing payment amounts are inherently
                                      unreasonable. This may result when the payment amounts are either
                                      grossly excessive or deficient. Generally, these amounts are defined as

OEI-06-07-00590   M E D I C A R E PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : E N T E R A L N U T R I E N T P R I C I N G   4
    I N T R O D                   U C T                I O N


                                      requiring an adjustment of over 15 percent to produce an equitable and
                                      realistic payment amount. Factors that CMS may consider in its
                                      determination include price markup, charge differences, the
                                      noncompetitiveness of the market place, payments in particular
                                      localities that grossly exceed those of other localities for the same
                                      services, payments that grossly exceed acquisition or production costs,
                                      payment increases that cannot be explained by inflation or technology,
                                      and payments for which Medicare and Medicaid are the sole or primary
                                      payment sources. 8
                                      Medicaid. Medicaid was the primary payer for 65 percent of nursing
                                      home stays during 2006. 9 All of these stays were non-Part A stays,
                                      because Medicare did not pay for them. Unlike Medicare, Medicaid is a
                                      joint State-Federal program administered by the States. Within broad
                                      Federal guidelines, States establish their own eligibility standards
                                      encompassing Federal requirements and available options; thus, every
                                      State Medicaid program is different. All other available third party
                                      resources, including Medicare, must meet their legal obligation to pay
                                      for covered health care services before Medicaid makes any payments. 10
                                      To ensure that Medicaid recipients with Medicare eligibility receive
                                      Part B benefits during their NF stays and to facilitate payment by
                                      Part B, State Medicaid programs routinely pay Part B premiums for
                                      eligible beneficiaries.

                                      Stays in a NF are always considered non-Part A stays because a NF is
                                      not certified for Medicare Part A services. NF residents who are eligible
                                      only for Medicaid and require enteral nutrients may have them paid as
                                      part of Medicaid’s daily payment rate to the nursing homes. For those
                                      NF residents who are eligible for both Medicaid and Medicare Part B,
                                      Part B will pay for their enteral nutrients.

                                      All State Medicaid programs provide payment for ENT. 11 State
                                      Medicaid programs’ coverage and subsequent payment for ENT
                                      generally occurs under one of three reimbursement methods:



                                      8 42 CFR § 405.502.
                                      9 C. Harrington, et al., loc. cit.
                                      10 The Act, § 1902(a)(25).
                                      11 The Henry J. Kaiser Family Foundation,   Medicaid Benefits: Online Database. Available
                                      online at
                                      http://www.kff.org/medicaid/benefits/index.jsp?CFID=32790568&CFTOKEN=15412220.
                                      Accessed in June 2008.



OEI-06-07-00590   M E D I C A R E PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : E N T E R A L N U T R I E N T P R I C I N G   5
    I N T R O D                   U C T                I O N


                                      (1) the DME benefit as a prosthetic device, under which the State uses
                                          the Medicare fee schedule and HCPCS codes;

                                      (2) the pharmacy benefit, under which the State uses National Drug
                                          Codes (NDC); or

                                      (3) a combination of (1) and (2) above using both HCPCS and NDC
                                          codes.

                                      Related Payment Legislation
                                      Congress enacted legislation, such as the Balanced Budget Act of 1997
                                      (BBA) 12 and the Medicare, Medicaid, and SCHIP Benefits Improvement
                                      and Protection Act of 2000 (BIPA), 13 to further define Medicare
                                      payment criteria for nursing homes. The BBA established a prospective
                                      payment system for Part A stays and required nursing homes to
                                      arrange for and consolidate into a single Medicare bill the Part B
                                      services that are needed by a resident during his or her nursing home
                                      stay. 14 Prior to the BBA, suppliers and providers of Part B services for
                                      nursing home residents (e.g., physical therapists) billed Medicare
                                      directly for their services. Implementation of consolidated billing first
                                      occurred only for Part A stays. In 2000, before the BBA was
                                      implemented for non-Part A stays, the BIPA was enacted. It
                                      maintained consolidated billing for Part A stays and therapy services
                                      but repealed consolidated billing requirements for non-Part A stays.
                                      Therefore, claims for beneficiaries during non-Part A stays continue to
                                      be individually submitted by suppliers and providers.

                                      Mandate for Office of Inspector General To Monitor Part B Payments
                                      In repealing the BBA’s consolidated billing provisions for non-Part A
                                      nursing home stays, section 313 of the BIPA directed the Office of
                                      Inspector General (OIG) to perform monitoring of Medicare Part B
                                      payments during non-Part A stays. This ENT evaluation revisits prior
                                      OIG reports. Several additional studies will address other, previously
                                      identified, vulnerable Part B payment areas (e.g., DME and
                                      psychotherapy). The prior OIG reports regarding ENT include:




                                      12 P.L. No. 105-33.
                                      13 P.L. No. 106-554.
                                      14 BBA, § 4432.




OEI-06-07-00590   M E D I C A R E PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : E N T E R A L N U T R I E N T P R I C I N G   6
    I N T R O D                   U C T                I O N


                                            Coverage of Enteral Nutritional Therapy: Medicare and Other
                                             Payers 15 and Medicare Payments for Enteral Nutrition Therapy
                                             Equipment and Supplies in Nursing Homes 16 both reported
                                              Medicare’s vulnerability to excessive payments and the need for
                                              payment restructuring, particularly as related to ENT supplies and
                                              equipment.

                                            Medicare Payments for Enteral Nutrition, 17 Payments for Enteral
                                             Nutrition: Medicare and Other Payers, 18 and Enteral Nutrient
                                             Payments in Nursing Homes 19 each reported excessive Medicare
                                              payment for enteral nutrients when compared to the actual cost of
                                              their purchase. These reports also recommended payment
                                              restructuring. Additionally, one of these reports argued that enteral
                                              nutrients should be redefined as “food” for Medicare payment
                                              purposes and thus should not be billed to Part B but included in a
                                              nursing home’s daily rate.

                                      In response to OIG’s recommendations in the reports referenced above,
                                      CMS agreed that Medicare reimbursement for ENT was excessive and
                                      that there was a need for payment restructuring. However, CMS noted
                                      that any payment restructuring and related definitional changes would
                                      require legislation.

                                      CMS also agreed with prior recommendations relating to consolidated
                                      billing. Past OIG evaluations supported CMS’s seeking legislation to
                                      exclude enteral nutrients, supplies, and equipment from Part B
                                      reimbursement for residents in nursing homes engaged primarily in
                                      providing skilled care or rehabilitation. Such legislation would seek to
                                      treat the provision of ENT as room and board costs and thereby include
                                      them in the facility’s daily room rate. CMS further agreed with the


                                      15 OIG,      Coverage of Enteral Nutritional Therapy: Medicare and Other Payers
                                      (OEI-03-94-00020), May 1995. Available online at http://oig.hhs.gov/oei/subject_index.asp.
                                      Accessed in June 2008.
                                      16 OIG, Medicare Payments for Enteral Nutrition Therapy Equipment and Supplies in
                                      Nursing Homes (OEI-06-92-00866), May 1997. Available online at
                                      http://oig.hhs.gov/oei/subject_index.asp. Accessed in June 2008.
                                      17 OIG, Medicare Payments for Enteral Nutrition (OEI-03-02-00700), March 2004.
                                      Available online at http://oig.hhs.gov/oei/subject_index.asp. Accessed in June 2008.
                                      18 OIG,Payments for Enteral Nutrition: Medicare and Other Payers (OEI-03-94-00021),
                                      May 1996. Available online at http://oig.hhs.gov/oei/subject_index.asp. Accessed in
                                      June 2008.
                                      19 OIG, Enteral Nutrient Payments in Nursing Homes (OEI-06-92-00861), March 1996.
                                      Available online at http://oig.hhs.gov/oei/subject_index.asp. Accessed in June 2008.



OEI-06-07-00590   M E D I C A R E PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : E N T E R A L N U T R I E N T P R I C I N G   7
    I N T R O D                   U C T                I O N


                                      need for CMS to apply its authority to require competitive bidding for
                                      enteral nutrition products and inherent reasonableness. CMS noted
                                      that for application of inherent reasonableness, its payment contractors
                                      would have to develop written procedures for conducting reviews
                                      according to statute and regulation.

                                      Efforts To Reduce Medicare Payments
                                      As authorized by the BBA, CMS conducted a competitive bidding
                                      demonstration for enteral nutrients and associated supplies and
                                      equipment in Polk County, Florida, from October 1999 to
                                      September 2001. The project revealed that demonstration allowances
                                      were lower than the existing fee schedule for 22 of the 24 enteral
                                      items. 20 Project reviewers estimated that 2001 Medicare fee schedule
                                      reimbursement rates for the ENT would have decreased by 15.8 percent
                                      using demonstration prices. 21
                                      Subsequently, section 302 of the Prescription Drug, Improvement, and
                                      Medicare Modernization Act of 2003 (MMA) authorized use of the
                                      competitive acquisition authority outlined in section 1847(a) of the
                                      Act. 22 Section 302(b)(1) of the MMA requires CMS to replace the
                                      current Medicare payment methodology for certain items (including
                                      ENT) with a competitive acquisition process that, according to CMS,
                                      “provides a way to harness marketplace dynamics to create incentives
                                      for suppliers to provide quality items in an efficient manner, at a
                                      reasonable cost to the Medicare beneficiaries with expected savings for
                                      Medicare.” 23 Although the competitive process is not yet implemented
                                      nationally, CMS is introducing it in nine markets for suppliers of


                                      20 Demonstration allowances, or the “fee schedule” for the bidding demonstration, were

                                      determined from demonstration suppliers’ bid submissions. Demonstration suppliers were
                                      selected using a four-stage bid evaluation process that included determining a composite bid
                                      and a cutoff bid based on supplier bid submissions. Suppliers that bid at or below the cutoff
                                      bid were eligible to participate in the demonstration if they met quality standards.
                                      21 CMS,       Evaluation of Medicare’s Competitive Bidding Demonstration for DMEPOS
                                      (durable medical equipment, prosthetics, orthotics, and supplies), September 2000 (revised
                                      January 2001). RTI Project Number 7346-002-008. Available online at
                                      http://www.cms.hhs.gov/DemoProjectsEvalRpts/downloads/karon_2001_1.pdf. Accessed in
                                      January 2009.
                                      22 P.L. No. 108-173.
                                      23 CMS, Competitive Acquisition for DMEPOS. Available online at
                                      http://www.cms.hhs.gov/apps/media/press/factsheet.asp?Counter=2812&intNumPerPage=1
                                      0&checkDate=&checkKey=&srchType=1&numDays=3500&srchOpt=0&srchData=&keywor
                                      dType=All&chkNewsType=6&intPage=&showAll=&pYear=&year=&desc=false&cboOrder=
                                      date. Accessed in March 2009.



OEI-06-07-00590   M E D I C A R E PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : E N T E R A L N U T R I E N T P R I C I N G   8
    I N T R O D                   U C T                I O N


                                      selected DMEPOS. Medicare suppliers of DMEPOS, unless exempt,
                                      were required to be accredited and obtain surety bonds by October 1,
                                      2009, and October 2, 2009, respectively. CMS expected to begin the
                                      60-day bid window for Round 1 Rebid by October 21, 2009, and to
                                      implement the program by January 1, 2011. 24


                                      METHODOLOGY
                                      Scope
                                      This evaluation identifies pricing for the most frequently billed enteral
                                      nutrient HCPCS codes, B4150 and B4154, during non-Part A stays in
                                      2006. These codes represent $117.8 million (83 percent) of Medicare
                                      Part B-allowed charges for enteral nutrients during these stays.

                                      Identification of Enteral Nutrients, Supplies, and Equipment During a
                                      Nursing Home Stay
                                      We used several databases obtained from CMS to identify Part B
                                      payments allowed for ENT during nursing home stays. These
                                      databases included the: Minimum Data Set (MDS), Online Survey
                                      Certification and Reporting system (OSCAR), Enrollment Database
                                      (EDB), and National Claims History (NCH).
                                      Minimum Data Set. We used the MDS to identify all 2006 nursing home
                                      residents, related nursing homes, and nursing home stay dates. The
                                      MDS, a component of the resident assessment instrument, includes
                                      information about each resident’s health, physical functioning, mental
                                      status, and general well-being. 25 Each nursing home reports these
                                      individual assessments electronically upon admission and updates them
                                      at least quarterly. 26 The MDS includes nursing home admission and
                                      discharge dates. States receive assessments from nursing homes and
                                      transmit the data to CMS. Using the MDS data, we identified all
                                      assessed residents and their Social Security numbers (SSN). To
                                      determine stay dates, we extracted all nursing home admission and
                                      discharge dates for each resident.



                                      24 CMS,  DMEPOS Competitive Bidding, Latest News and Announcements. Available
                                      online at http://www.dmecompetitivebid.com/Palmetto/Cbic.nsf/DocsCat/Home (CMS’s
                                      Competitive Bidding Implementation Contractor is Palmetto). Accessed on August 25,
                                      2009.
                                      25 OBRA.
                                      26 More frequent assessments are required for stays paid under the Part A SNF benefit.




OEI-06-07-00590   M E D I C A R E PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : E N T E R A L N U T R I E N T P R I C I N G   9
    I N T R O D                   U C T                I O N


                                      We used assessment dates as proxies for missing admission or discharge
                                      dates according to the following assumptions:

                                            Missing Admission Date. If the resident was in the nursing home on
                                             January 1, 2006 (determined from subsequent assessments that the
                                             nursing homes conducted), we used the date of the first assessment
                                             conducted in 2005 as the admission date.

                                            Missing Discharge Date. In this instance, we defined the date of the
                                              last assessment (received through March 2007) as the discharge
                                              date.
                                      Online Survey Certification and Reporting. To obtain information about the
                                      nursing home (e.g., facility name, address, number of beds, and SNF or
                                      NF certification), we linked the MDS facility identification number with
                                      the facility numbers maintained in OSCAR. OSCAR contains survey
                                      results from certification and complaint surveys.
                                      Enrollment Database. We used the EDB to identify Medicare
                                      beneficiaries. This database includes beneficiary-level data (i.e., name,
                                      SSN, and Medicare Health Insurance Claim Number (HICN)). Using
                                      this database, we matched SSNs in the MDS file to SSNs in the EDB to
                                      identify Medicare beneficiaries and their associated HICNs. We
                                      excluded beneficiaries having no matching SSN from further analysis.
                                      National Claims History. We used the NCH to identify Part B ENT
                                      payments made during non-Part A stays. We matched the HICNs in
                                      the EDB to those in the NCH to identify all ENT claims allowed for
                                      Medicare beneficiaries during any nursing home stay. We then
                                      removed all ENT claims billed for beneficiaries during Part A paid
                                      nursing home or inpatient hospital stays. 27 The resulting dataset
                                      comprised all ENT nutrient HCPCS codes (see Appendix A) and all ENT
                                      supplies and equipment HCPCS codes (see Appendix B) for which
                                      billing was allowed under Part B during non-Part A stays in 2006.

                                      Identification of Enteral Nutrient Prices
                                      To obtain prices and packaging information for enteral nutrients
                                      covered under HCPCS codes B4150 and B4154, the most frequently
                                      billed enteral nutrient HCPCS codes, we surveyed nursing homes and
                                      suppliers represented in a random sample of claims. We also purchased

                                      27 OIG’s Office of Audit Services routinely conducts audits related to inappropriate Part B
                                      payments occurring during Part A stays. Consequently, we excluded all Part A stays from
                                      our review.



OEI-06-07-00590   M E D I C A R E PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : E N T E R A L N U T R I E N T P R I C I N G   10
    I N T R O D                   U C T                I O N


                                      industry pricing data from a market research firm. We then compared
                                      Medicare-allowed payments and fee schedule amounts to data from
                                      these two sources.
                                      Survey of nursing homes and suppliers. We identified nursing homes
                                      associated with at least one claim for either HCPCS codes B4150 or B4154
                                      in 2006 and divided the population into two strata based on ENT volume.
                                      The first stratum contained 8,018 nursing homes associated with allowed
                                      ENT payments of $17,000 or less, and the second stratum contained
                                      2,692 nursing homes associated with allowed ENT payments of more than
                                      $17,000. We randomly selected 160 nursing homes from each stratum, for
                                      a total of 320 nursing homes. We then randomly selected three enteral
                                      nutrient claims having service dates in 2006 associated with each of the
                                      320 nursing homes (or all claims if there were fewer than three). This
                                      resulted in a sample of 938 claims submitted by 216 suppliers for
                                      712 beneficiaries. For these 938 claims, Medicare allowed nearly
                                      $280,000 and reimbursed nearly $223,000. For the sampled claims, the
                                      216 suppliers billed as little as $15 and as much as $13,394, with an
                                      average of $1,295 per supplier.

                                      We mailed surveys to the 320 nursing homes and the 216 associated
                                      suppliers. We removed 10 suppliers from the sample because of incorrect
                                      addresses on file; we removed an additional 7 suppliers because of
                                      company dissolution or ongoing investigations by other governmental
                                      departments. Of the remaining 199 suppliers, 190 responded to the
                                      surveys (88 percent); of the 320 nursing homes, 304 responded
                                      (95 percent). Responding suppliers represent about 80 percent of claims
                                      associated with HCPCS code B4150 (366 claims) in the sample and about
                                      75 percent of the claims associated with HCPCS code B4154 (230 claims)
                                      in the sample. 28

                                      Using survey results, we organized enteral nutrient packaging into two
                                      categories: ready-to-hang (RTH) and ready-to-use (RTU). We calculated
                                      unit prices for RTH and RTU packaging categories for HCPCS codes
                                      B4150 and B4154. Using these data, we calculated an average unit price
                                      for B4150 and B4154 and identified the higher of the two packaging prices
                                      for each supplier. For each claim in the sample, we used this higher
                                      identified price to calculate an average unit price, which provided a


                                      28 Of the 320 nursing homes represented in the sampled claims, 12 percent (39) reported
                                      that they served as their own suppliers for purchasing enteral nutrients, supplies, and
                                      equipment.



OEI-06-07-00590   M E D I C A R E PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : E N T E R A L N U T R I E N T P R I C I N G   11
    I N T R O D                   U C T                I O N


                                      conservative estimate of prices available to nursing home suppliers. We
                                      then calculated the difference between the actual Medicare-allowed
                                      amount and the estimated prices available to suppliers. We performed
                                      this calculation using the population of 2006 claims for HCPCS codes
                                      B4150 and B4154 and their respective estimated average unit prices from
                                      our sample. We weighted the sample statistics according to the sampling
                                      design.
                                      Industry pricing data. To buttress results from our sample and to identify
                                      pricing for other purchasers, we obtained pricing data for 2006 from a
                                      market research firm that routinely surveys different sectors of the
                                      business community (i.e., hospitals, nursing homes, and retail outlets). 29
                                      The purchased dataset contained sales information for specific enteral
                                      nutrients, defined as complete food supplements. It contains the dollar
                                      amounts from the actual invoice prices, meaning that the provided
                                      amounts were exactly what the outlets paid wholesalers to acquire these
                                      products. The market research firm estimates that it captures 84 percent
                                      of the total U.S. market, including 94 percent of the volume sold to nursing
                                      homes for their residents in 2006. We calculated unit prices for nutrients
                                      identified as either HCPCS code B4150 or code B4154 and compared the
                                      medians of these prices with Medicare’s fee schedule amounts. We used
                                      median prices because outliers skewed the average. We also used the data
                                      to identify enteral nutrition prices available to hospitals, home health
                                      agencies, and the public through retail outlets.

                                      Limitations
                                      We did not validate the supplier-reported prices or the market research
                                      firm’s pricing data. Nor did we identify the specific brands of enteral
                                      nutrients associated with the sampled claims. Although we did obtain
                                      some supply contracts, rebate information, and purchase agreements
                                      from nursing homes and suppliers, very little of this information
                                      provided specific cost information. Such information could have lowered
                                      the average unit prices for the enteral nutrients.




                                      29 The company performs surveys of different sectors of the business community to identify

                                      purchase patterns of various products. It markets these data to the provider community.
                                      One of the products tracked is complete food supplements (enteral nutrients) purchased by
                                      hospitals, long term care facilities (including nursing homes), and other entities. A sample
                                      of sales information is obtained and then projected to the Nation. Specifically, this
                                      database contains direct sales from manufacturers to retail and nonretail outlets as well as
                                      indirect sales from wholesalers to retail and nonretail outlets.



OEI-06-07-00590   M E D I C A R E PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : E N T E R A L N U T R I E N T P R I C I N G   12
    I N T R O D                   U C T                I O N


                                      Prices obtained from surveys of nursing homes and suppliers also did
                                      not include shipping and delivery costs. Further, we did not include
                                      administrative costs or staffing costs associated with administering the
                                      enteral nutrients. Using these costs could have raised the average unit
                                      prices for the enteral nutrients.

                                      Finally, we were unable to reliably determine the actual cost of
                                      conventional food per patient per day among typical nursing homes for
                                      comparison to enteral nutrient product costs. Two avenues attempted
                                      were an assessment of SNF cost reports and a request for cost
                                      information from large nursing home chains.
                                      First, SNFs’ annual cost reports submitted to CMS are not reliable for
                                      determining an accurate measure of food costs. We reviewed the 2006
                                      annual cost summary report and found that reported dietary expenses
                                      varied widely because the dietary cost center may include not only the
                                      actual cost of food products but other expenses. These other expenses
                                      might include costs associated with food preparation or procurement,
                                      salaries of feeding assistants (typically a nursing service), and utensils.

                                      Second, we contacted the 10 largest nursing home chains to request the
                                      average cost range (from low to high) of conventional food per patient
                                      per day in their nursing homes. However, we received data from only
                                      four and are not able to project the results. Among these four,
                                      representing approximately 5 percent of all nursing homes, the reported
                                      current average daily patient food costs ranged from a low of $4.75 to a
                                      high of $7.27 in 2009. This compares to $6.40 for enteral nutrients
                                      (B4150) calculated using the average supplier cost determined in this
                                      evaluation and assuming a typical resident’s dietary needs. We did not
                                      verify the costs reported by these chains or obtain more current supplier
                                      cost data. However, one of these chains reported that while the cost of
                                      conventional food has steadily increased since 2006, its cost for enteral
                                      nutrition therapy products has remained relatively flat.

                                      Standards
                                      This study was conducted in accordance with the Quality Standards for
                                      Inspections approved by the Council of the Inspectors General on
                                      Integrity and Efficiency.




OEI-06-07-00590   M E D I C A R E PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : E N T E R A L N U T R I E N T P R I C I N G   13
     F   I N D I N G                      S
            F I N D I N G

      Medicare’s fee schedule for enteral nutrients                          We estimated that the average unit
provided under Part B during non-Part A stays was                            price available to suppliers
                                                                             responding to our survey was
 more than double the prices available to suppliers
                                                                             $0.32 for HCPCS nutrient code
   of nursing homes and other purchasers in 2006
                                                                             B4150 and $0.56 for nutrient code
                                        B4154. 30 (See Appendix C for confidence intervals.) Medicare’s fee
                                        schedule amount for HCPCS code B4150 in 2006 ($0.67) exceeded the
                                        estimated price by $0.35, which is 52 percent of the fee schedule amount
                                        for code B4150. Further, Medicare’s fee schedule amount for HCPCS
                                        code B4154 in 2006 ($1.22) exceeded the estimated price by $0.66, which
                                        is 54 percent of the fee schedule amount. Using average unit prices
                                        estimated from our surveys, we determined that Medicare’s allowance
                                        for these two most frequently billed enteral nutrient codes exceeded
                                        prices available to suppliers by approximately $61 million for
                                        non-Part A nursing home stays in 2006. (See Table 1.)


          Table 1: Actual Medicare Allowances and Estimated Supplier Prices
          Available for Selected Enteral Nutrient HCPCS Codes During Non-Part A
          Nursing Home Stays in 2006
          HCPCS                    Actual Medicare Allowance*                             Estimated Supplier Prices**                                                   Difference***

          B4150                                               $52.8 million                                         $26.0 million                                       $26.8 million
          B4154                                               $65.0 million                                         $30.6 million                                       $34.4 million
             TOTAL                                         $117.8 million                                          $56.6 million                                        $61.2 million

          *Actual Medicare allowance for HCPCS codes B4150 and B4154 during non-Part A nursing home stays in 2006.
          **Using survey prices, the estimated supplier prices for HCPCS codes B4150 and B4154 during non-Part A nursing
          home stays in 2006.
          ***Difference between actual Medicare allowance and estimated supplier prices for HCPCS codes B4150 and B4154
          during non-Part A nursing home stays in 2006.
          Source: OIG’s analysis of supplier surveys and ENT claims made for residents during non-Part A stays in 2006.




                                        Industry pricing data confirmed that Medicare’s fee schedule amounts
                                        exceeded unit prices available to other purchasers, including nursing
                                        homes
                                        No purchaser type in the industry data paid at or above Medicare’s fee
                                        schedule amounts for claims with HCPCS codes B4150 or B4154. The
                                        fee schedule amount for HCPCS code B4150 exceeded the median unit
                                        price available to long term care entities, including nursing homes, by


                                        30 We estimate that the median unit price was $0.32 and $0.54 for HCPCS codes B4150 and
                                        B4154, respectively.



 OEI-06-07-00590    M E D I C A R E PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : E N T E R A L N U T R I E N T P R I C I N G             14
        F   I N D I N G


                                           52 percent; the fee schedule amount for HCPCS code B4154 exceeded
                                           the median unit price available to long term care entities by
                                           100 percent. (See Table 2.) The unit price closest to the fee schedule
                                           was for HCPCS code B4150 in Federal facilities at 79 percent of the fee
                                           schedule amount. The largest unit price difference was for HCPCS code
                                           B4154 purchased by non-Federal hospitals at 34 percent of the fee
                                           schedule amount.


Table 2: Comparison of Medicare’s Fee Schedule Amounts to Prices Available to
Other Purchasers of Enteral Nutrients in 2006
                                                             B4150                                                                               B4154
Type of Purchaser
in Industry Report                                                           Fee Schedule                                                                           Fee Schedule
                               Median Unit Price (N)                                                             Median Unit Price (N)
                                                                         Exceeds Price By:                                                                      Exceeds Price By:
Chain Stores                         $0.48         (269)                    $0.19         (40%)                             $0.61         (133)                   $0.61 (100%)
Clinics                              $0.46         (239)                    $0.21         (46%)                             $0.59         (106)                   $0.63 (107%)
Federal Facilities                   $0.53         (98)                     $0.14         (26%)                             $0.61         (58)                    $0.61 (100%)
Food Stores                          $0.50         (219)                    $0.17         (34%)                             $0.62         (101)                   $0.60 (97%)
Health Maintenance
                                     $0.52         (55)                     $0.15         (29%)                             $0.59         (30)                    $0.63 (107%)
Organizations
Home Health                          $0.41         (263)                    $0.26         (63%)                             $0.60         (125)                   $0.62 (103%)
Independent                          $0.48         (247)                    $0.19         (40%)                             $0.62         (120)                   $0.60 (97%)
Long Term Care                       $0.44         (285)                     $0.23        (52%)                             $0.61         (135)                   $0.61 (100%)
Mail Service                         $0.42         (192)                    $0.25         (59%)                             $0.49         (86)                    $0.73 (149%)
Non-Federal
                                     $0.31         (278)                    $0.36         (116%)                            $0.41         (153)                   $0.81 (198%)
Hospitals
Prisons                              $0.43         (85)                     $0.24         (56%)                             $0.59         (44)                    $0.63 (107%)
Selected Markets                     $0.43         (384)                    $0.24         (56%)                             $0.56         (196)                   $0.66 (118%)
Universities                         $0.52         (35)                     $0.15         (29%)                             $0.57         (8)                     $0.65 (114%)
Other                                $0.49         (143)                    $0.18         (37%)                             $0.58         (49)                    $0.64 (110%)

Medicare
                                    $0.67                    NA                                   NA                        $1.22               NA                              NA
Fee Schedule
Median unit prices are shown because outliers skewed the average unit prices.
“N” represents the number of entities included in industry dataset.
The “long term care” type of provider includes nursing homes and is bolded for easy comparison to the Medicare Fee Schedule.
Source: OIG’s analysis of 2006 industry pricing data.




                                           Nutrient packaging had little effect on pricing
                                           Although we used the highest packaging price to compare the Medicare
                                           fee schedule amounts to supplier prices, average unit prices for RTU
                                           and RTH products were similar. 31 For HCPCS code B4150, 81 percent
                                           of the suppliers associated with the sampled claims purchased RTU and

                                           31 These averages are unweighted average unit prices among the suppliers in our sample.




OEI-06-07-00590        M E D I C A R E PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : E N T E R A L N U T R I E N T P R I C I N G         15
    F   I N D I N G


                                      91 percent purchased RTH. The average supplier unit price for RTH
                                      was $0.01 higher than the average supplier unit price for RTU ($0.32
                                      and $0.31, respectively). For HCPCS code B4154, 79 percent of
                                      suppliers purchased RTU and 84 percent purchased RTH. The average
                                      supplier unit price for RTH was $0.07 higher than the average supplier
                                      unit price for RTU ($0.58 and $0.51, respectively).




OEI-06-07-00590   M E D I C A R E PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : E N T E R A L N U T R I E N T P R I C I N G   16
    E X E C U T I V E                                      S U           M M A R Y
           R E C O M M E N D A T I O N

                                      This evaluation is consistent with prior OIG reports that have found
                                      that Medicare’s fee schedule amounts exceed available market prices for
                                      ENT. Current Medicare payments do not reflect the buying power of
                                      nursing home suppliers to obtain nutrients at lower prices than
                                      reflected in the Medicare fee schedule. To more appropriately
                                      reimburse ENT, CMS should:
                                      Adjust the Medicare fee schedule amounts for enteral nutrients to more
                                      accurately reflect supplier prices for nutrients provided to nursing home
                                      residents
                                      CMS can use inherent reasonableness reviews or may be able to act on
                                      pricing information from the competitive bidding program for DMEPOS.
                                      In response to prior OIG reports, CMS has indicated its willingness to
                                      pursue inherent reasonableness reviews; however, no such reviews have
                                      been reported.

                                      Payments for ENT could be further impacted if Congress changed the
                                      prosthetic device benefit to restrict Part B coverage to a beneficiary’s home
                                      and thereby recognized enteral nutrients as food covered under nursing
                                      home room and board payment. Such a policy change would end Part B
                                      payments for ENT costs in nursing homes and would affect nearly half of
                                      all current Part B ENT payments annually. The rationale behind a
                                      change to the benefit is that enteral nutrient feeding costs may be
                                      comparable to conventional meal costs incurred for other nursing home
                                      residents. These conventional meal costs are reimbursed under the
                                      nursing home’s room and board payment. Further, a change to the
                                      prosthetic device benefit is consistent with a nursing home’s responsibility
                                      to feed its residents and DME payment policy that places the
                                      responsibility on nursing homes, as institutions, to provide for the basic
                                      equipment needs of residents. Such a payment policy change would
                                      encourage nursing homes to act as prudent purchases and to exert their
                                      institutional buying power in obtaining nutrients, supplies, and equipment
                                      for ENT. Limiting the prosthetic device benefit to the home setting would
                                      require legislative action and could result in as much as $284 million in
                                      program savings. However, additional assessment is needed to establish
                                      the comparability of conventional meal costs to ENT and the impact of
                                      such a policy change on nursing homes.




OEI-06-07-00590   M E D I C A R E PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : E N T E R A L N U T R I E N T P R I C I N G   17
    R   E C O         M M E N D A T                                   I O N



                                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                                      RESPONSE
                                      CMS agreed with our recommendation that Medicare payments for
                                      enteral nutrients be adjusted to more accurately reflect supplier prices
                                      for nutrients provided to nursing home residents. CMS cited two
                                      actions it is taking to accomplish this. First, the rebid of the DMEPOS
                                      competitive bidding program is scheduled to take effect on January 1,
                                      2011, and includes enteral nutrients, supplies, and equipment. Second,
                                      CMS will consider adjusting the Medicare fee schedule for enteral
                                      nutrients once sufficient data are available from the bidding process.
                                      For the full text of CMS’s comments, see Appendix D.

                                      We did not make any changes to the report based on CMS’s comments.




OEI-06-07-00590   M E D I C A R E PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : E N T E R A L N U T R I E N T P R I C I N G   18
           A P P E N D I X                                           A




         Table A-1: Healthcare Common Procedure Coding System Enteral Nutrient
         Codes and Related Fee Schedule Amounts During Non-Part A Nursing Home
         Stays in 2006

                                                                                                                                                                       Fee Schedule
         Code         Description
                                                                                                                                                                           Amount*

         B4149        Manufactured, blenderized natural foods with intact nutrients                                                                                           $1.57

         B4150        Nutritionally complete with intact nutrients                                                                                                            $0.67

         B4152        Nutritionally complete, calorically dense, with intact nutrients                                                                                        $0.56


         B4153        Nutritionally complete, hydrolyzed proteins (amino acids and peptide chain)                                                                             $1.91


         B4154        Nutritionally complete, for special metabolic needs                                                                                                     $1.22

         B4155        Nutritionally incomplete/modular nutrients, includes specific nutrients                                                                                 $0.95

                      Nutritionally complete, for special metabolic needs for inherited disease of
         B4157                                                                                                                                                                   **
                      metabolism

         B4159        Nutritionally complete, soy based with intact nutrients, for pediatrics                                                                                    **

         Bolded codes are those that represent the majority of enteral nutrient claims and for which we determined pricing.
         *Per unit (100 calories).
         **No national fee schedule amount available from the Centers for Medicare & Medicaid Services (CMS) in the Durable
         Medical Equipment Coding System; Durable Medical Equipment Medicare Administrative Contractors must be
         contacted for pricing information.
         Source: CMS national fee schedule available from the Statistical Analysis Durable Medical Equipment Regional Carrier, the national
         entity contracted by CMS.




OEI-06-07-00590    M E D I C A R E PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : E N T E R A L N U T R I E N T P R I C I N G            19
                 A P P E N D I X                                           B



         Table B-1: Healthcare Common Procedure Coding System Enteral Supply
         and Equipment Codes and Related Fee Schedule Amounts During Non-Part A
         Nursing Home Stays in 2006

                                                                                                                                                                       Fee Schedule
         Code         Description
                                                                                                                                                                            Amount

         B4034        Syringe feeding supply kit, per day                                                                                                                      $6.12

         B4035        Infusion pump feeding supply kit, per day                                                                                                              $11.66

         B4036        Gravity feeding supply kit, per day                                                                                                                      $8.00

         B4081        Nasogastric tubing with stylet                                                                                                                         $21.62

         B4082        Nasogastric tubing without stylet                                                                                                                      $16.09

         B4083        Stomach tube – Levine type                                                                                                                               $2.46

         B4086        Gastrostomy/jejunostomy tube                                                                                                                           $25.69

                                                                                                                                                                                    1
                                                                                                                                                                          $1,226.26
                                                                                                                                                                                    2
         B9000        Infusion pump without alarm                                                                                                                           $919.69
                                                                                                                                                                                    3
                                                                                                                                                                            $112.68
                                                                                                                                                                                    1
                                                                                                                                                                          $1,126.26
                                                                                                                                                                                    2
         B9002        Infusion pump with alarm                                                                                                                              $919.69
                                                                                                                                                                                    3
                                                                                                                                                                            $118.77

         B9998        Enteral supply not otherwise classified                                                                                                                       *

                                                                                                                                                                                    1
                                                                                                                                                                           $101.98
                                                                                                                                                                                   2
         E0776        Intravenous pole (must have a BA modifier)                                                                                                            $76.49
                                                                                                                                                                                   3
                                                                                                                                                                            $25.81
         1
           New equipment.
         2
           Used equipment.
         3
           Rented equipment.
         *No national fee schedule amount available from the Centers for Medicare & Medicaid Services (CMS) in the Durable
         Medical Equipment Coding System; Durable Medical Equipment Medicare Administrative Contractors must be
         contacted for pricing information.
         Source: CMS’s national fee schedule obtained from the Statistical Analysis Durable Medical Equipment Regional Carrier.




OEI-06-07-00590    M E D I C A R E PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : E N T E R A L N U T R I E N T P R I C I N G              20
            A P P E N D I X                                            C



     Table C-1: Confidence Intervals for Selected Statistics*

                                                                                                                                                                            95-Percent
     Statistic                                                                                            N                     Estimate
                                                                                                                                                                    Confidence Interval

     Estimated average unit price for Healthcare
     Common Procedure Coding System (HCPCS)                                                 366 claims                               $0.32                                    $0.31–0.34
     code B4150, using highest packaging price

     Estimated prices available to suppliers for
     HCPCS code B4150, using unit prices obtained                                           366 claims                     $26.0 million                                $24.9–27.1 million
     from supplier surveys

     Difference between actual Medicare allowance
     and estimated supplier prices for HCPCS code                                           366 claims                     $26.9 million                                $25.8–28.0 million
     B4150

     Estimated average unit price for HCPCS code
                                                                                            230 claims                               $0.56                                    $0.54–0.59
     B4154, using highest packaging price

     Estimated prices available to suppliers for
     HCPCS code B4154, using unit prices obtained                                           230 claims                     $30.6 million                                $29.1–32.1 million
     from supplier surveys

     Difference between actual Medicare allowance
     and estimated supplier prices for HCPCS code                                           230 claims                     $34.3 million                                $32.8–35.9 million
     B4154

     *The estimates and 95-percent confidence intervals are based on the population of HCPCS codes B4150 or B4154 claims, using
     the weighted average unit prices estimated from our sample.

     Source: Office of Inspector General’s sample analysis and projections of enteral nutrient claims for non-Part A nursing home stays during 2006.




OEI-06-07-00590     M E D I C A R E PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : E N T E R A L N U T R I E N T P R I C I N G            21
            A P PEN 0                      x       o


                                                     Agency Comments



                             DEPAH.TMENT OF lIEALTH & HUMAN SERVICES                                  Centers for Medicare & Medicaid Services


                                                                                                      Administrator
                                                                                                      Washington, DC 20201



                       DATE:         NOV '1 2 2009
                       TO:            Daniel R. Levinson
                                      Inspector General
                                                         /S/
                       FROM:          Charlene Fnzzera
                                      Acting Administrator

                       SUBJECT:       Office of Inspector General Draft Report: "Medicare Part B Services During
                                      Non-Part A Nursing Home Stays: Enteral Nutrient Pricing"
                                      (OEI-06-07-00590)


                       Thank you for the opportunity to review and comment on the Office ofInspector General's
                       (OlG) draft report entitled "Medicare Part B Services During Non-Part A Nursing Home Stays:
                       Enteral Nutrient Pricing." The report compares the Medicare fee schedule amounts for these
                       items to prices available to suppliers of nursing homes and other purchasers in 2006.

                       The Centers for Medicare & Medicaid Services (CMS) included enteral nutrients, supplies, and
                       equipment as a product category in Round 1 ofthe durable medical equipment, prosthetics,
                       orthotics, and supplies (DMEPOS) competitive bidding program. Under the competitive bidding
                       program, payment in competitive bidding areas is limited to suppliers who have submitted and
                       been awarded contracts with Medicare. Payment is set at the "single payment amount," which is
                       determined using bid amounts and is lower than the fee schedule payment amount. The
                       competitive bidding program went into effect in 10 competitive bidding areas on July 1,2008.

                       The single payment amounts for enteral nutrients, supplies, and other covered equipment
                       resulting from this competition were 26 percent lower, on average, than the corresponding
                       Medicare fee schedule amounts at that time. However, the Medicare Improvements for Patients
                       and Providers Act of 2008 (MIPP A) delayed Round I of the DMEPOS competitive bidding
                       program and required that re-bidding occur in 2009. The MIPPA mandated that the Round 1
                       re-bid program include the same items that were bid in Round 1, which includes enteral
                       nutrients, supplies, and equipment. The bidding for the Round 1 re-bid of the program began on
                       October 21, 2009, and the program is scheduled to take effect on January 1,2011.

                       The OlG draft report provides valuable insight for CMS on suppliers' costs for enteral nutrients.

                       OIG Recommendation:

                       Adjust the Medicare fee schedule amounts for enteral nutrients to more accurately reflect
                       supplier prices for nutrients provided to nursing home residents.




OEI·06·07·00590   MEDICARE PART B SERVICES DURING NON,PART   A   NURSING HOME STAYS:   ENTERAL NUTRIENT PRICING
                                                                                                                                 22
    A   P   P E N D                 I X              D




OEI-06-07-00590   M E D I C A R E PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : E N T E R A L N U T R I E N T P R I C I N G   23
           A C K N O W L E D G M E N T S



                                      This report was prepared under the direction of Kevin K. Golladay,
                                      Regional Inspector General for Evaluation and Inspections in the Dallas
                                      regional office, and A. Blaine Collins, Deputy Regional Inspector
                                      General.
                                      Leah K. Bostick served as the team leader for this evaluation, and
                                      Dana McClellen served as lead analyst. Other principal Office of
                                      Evaluation and Inspections staff from the Dallas regional office who
                                      contributed to this study include Petra Johansson, Sai Loganathan, and
                                      Jeremy Moore; central office staff who contributed include
                                      Robert L. Gibbons, Scott Horning, Jennifer Jones, and Sandy Khoury.




OEI-06-07-00590   M E D I C A R E PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : E N T E R A L N U T R I E N T P R I C I N G   24
               Office of Inspector General
                                http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
